No.

In the Supreme Court of the United States
UNITED STATES OF AMERICA, PETITIONER
v.
RICHARD D. COLLINS
UNITED STATES OF AMERICA, PETITIONER
v.
HUMPHREY DANIELS III
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE ARMED FORCES

PETITION FOR A WRIT OF CERTIORARI

JULIE L. PITVOREC
Col., USAF
Chief
MARY ELLEN PAYNE
Associate Chief
BRIAN C. MASON
Lt. Col., USAF
Deputy Chief
Government Trial and
Appellate Counsel Division
Department of the Air Force
Joint Base Andrews-NAF,
MD 20762

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
BRIAN A. BENCZKOWSKI
Assistant Attorney General
ERIC J. FEIGIN
CHRISTOPHER G. MICHEL
Assistants to the Solicitor
General
PAUL T. CRANE
Attorney
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

QUESTION PRESENTED

Whether the Court of Appeals for the Armed Forces
erred in concluding—contrary to its own longstanding
precedent—that the Uniform Code of Military Justice
allows prosecution of a rape that occurred between 1986
and 2006 only if it was discovered and charged within
five years.

(I)

RELATED PROCEEDINGS

General Court-Martial (Hurlburt Field and Eglin Air
Force Base, Fla.):
United States v. MSgt. Richard D. Collins (Feb. 26,
2017) (no docket number assigned)
General Court-Martial (Joint Base Andrews Naval Air
Facility Washington):
United States v. Lt. Col. Humphrey Daniels, III
(June 14, 2017) (no docket number assigned)
United States Air Force Court of Criminal Appeals:
United States v. Richard D. Collins, MSgt. (E-7),
U.S. Air Force, No. ACM 39296 (July 23, 2018)
United States v. Humphrey Daniels, III, Lt. Col.
(O-5), U.S. Air Force, No. ACM 39407 (June 18,
2019)
United States Court of Appeals for the Armed Forces:
United States v. Richard D. Collins, No. 19-52 (Mar.
12, 2019)
United States v. Humphrey Daniels III, No. 19-345
(July 22, 2019)

(II)

TABLE OF CONTENTS

Page
Opinions below .............................................................................. 1
Jurisdiction .................................................................................... 2
Statutory and constitutional provisions involved ...................... 2
Statement ...................................................................................... 3
A. Military prosecution and punishment of rape .............. 4
B. United States v. Collins .................................................. 6
C. United States v. Daniels ............................................... 10
Reasons for granting the petition ............................................. 13
Conclusion ................................................................................... 17
Appendix A — Order of the Court of Appeals for the
Armed Forces (Mar. 12, 2019) ................... 1a
Appendix B — Opinion of the Air Force Court of
Criminal Appeals (July 23, 2018) ............... 2a
Appendix C — Order of the Court of Appeals for the
Armed Forces (July 22, 2019) .................. 19a
Appendix D — Opinion of the Air Force Court of
Criminal Appeals (June 18, 2019) ............ 21a
Appendix E — Statutory provisions ..................................... 42a
TABLE OF AUTHORITIES

Cases:
Coker v. Georgia, 433 U.S. 584 (1977) ............................. 5, 13
Kennedy v. Louisiana, 554 U.S. 945 (2008).......................... 5
Stogner v. California, 539 U.S. 607 (2003) .................... 10, 15
United States v. Briggs, 78 M.J. 289 (C.A.A.F. 2019),
petition for cert. pending, No. 19-108 (filed July 22,
2019) ............................................................................... 10, 13
United States v. Mangahas, 77 M.J. 220
(C.A.A.F. 2018).......................................................... 9, 12, 13
United States v. Stebbins, 61 M.J. 366
(C.A.A.F. 2005)............................................................ 6, 9, 14

(III)

IV
Case—Continued:

Page

Willenbring v. Neurauter, 48 M.J. 152
(C.A.A.F. 1998)........................................................ 5, 6, 9, 14
Constitution, statutes, and rule:
U.S. Const.:
Art. I, § 9 (Ex Post Facto Clause) ........................... 10, 14
Amend. VIII............................................................. 3, 5, 13
National Defense Authorization Act for Fiscal Year
2006, Pub. L. No. 109-163, § 553(a), 119 Stat. 3264 ........... 6
Uniform Code of Military Justice, 10 U.S.C. 801
et seq.:
10 U.S.C. 843(a) (1994) (Art. 43(a)).............2, 5, 9, 15, 42a
10 U.S.C. 843(a) (2000) (Art. 43(a)).......................... 13, 14
10 U.S.C. 843(a) (2012 & Supp. V 2017)
(Art. 43(a)) .............................................3, 6, 13, 14, 42a
10 U.S.C. 843(b) (1994) (Art. 43(b)) ................... 5, 12, 42a
10 U.S.C. 920(a) (1994)
(Art. 120(a)) ................................... 2, 3, 5, 9, 12, 15, 44a
10 U.S.C. 920(a) (2000) (Art. 120(a)) .............................. 14
10 U.S.C. 920(a)(1) (Art. 120(a)(1)) .......................... 3, 44a
18 U.S.C. 3281 .................................................................. 6, 45a
Sup. Ct. R. 12.4 ........................................................................ 1
Miscellaneous:
H.R. Conf. Rep. No. 360, 109th Cong., 1st Sess.
(2005) ...................................................................................... 6
H.R. Rep. No. 89, 109th Cong., 1st Sess. (2005) ................... 6
Memorandum from James N. Mattis, Secretary of
Defense, to All Members of the Department of Defense: Sexual Assault Prevention and Awareness
(Apr. 18, 2018), https://dod.defense.gov/portals/1/
features/2018/0418_sapr/saap-os d004331-18res.pdf .................................................................................... 4

V
Miscellaneous—Continued:

Page

U.S. Dep’t of Defense:
Judicial Proceedings Panel: Report on Retaliation Related to Sexual Assault Offenses
(Feb. 2016), http://jpp.whs.mil/Public/docs/
08-Panel_Reports/04_JPP_Retaliation_
Report_Final_20160211.pdf ....................................... 5
Report of the Response Systems to Adult Sexual
Assault Crimes Panel (June 2014), http://
responsesystemspanel.whs.mil/Public/docs/
Reports/00_Final/RSP_Report_Final_
20140627.pdf ................................................................. 4
Sex Crimes and the UCMJ: A Report for the
Joint Service Comm. on Military Justice
(2005), http://jpp.whs.mil/public/docs/
03_Topic-Areas/02-Article_120/20150116/58_
Report_SexCrimes_UCMJ.pdf.................................. 4

In the Supreme Court of the United States
UNITED STATES OF AMERICA, PETITIONER
v.
RICHARD D. COLLINS
UNITED STATES OF AMERICA, PETITIONER
v.
HUMPHREY DANIELS III
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE ARMED FORCES

PETITION FOR A WRIT OF CERTIORARI

The Solicitor General, on behalf of the United States,
respectfully petitions for a writ of certiorari to review
the judgments of the United States Court of Appeals for
the Armed Forces in these cases. Pursuant to this
Court’s Rule 12.4, the United States is filing a “single
petition for a writ of certiorari” because the “judgments
* * * sought to be reviewed” are from “the same court
and involve identical or closely related questions.”
OPINIONS BELOW

The order of the Court of Appeals for the Armed
Forces in United States v. Collins (App., infra, 1a) is
reported at 78 M.J. 415. The opinion of the Air Force

(1)

2
Court of Criminal Appeals (App., infra, 2a-18a) is reported at 78 M.J. 530.
The order of the Court of Appeals for the Armed
Forces in United States v. Daniels (App., infra, 19a20a) is not yet published in the Military Justice Reporter but is available at 2019 WL 3026956. The opinion
of the Air Force Court of Criminal Appeals (App., infra,
21a-41a) is not published in the Military Justice Reporter but is available at 2019 WL 2560041.
JURISDICTION

The judgment of the court of appeals in Collins was
entered on March 12, 2019. On June 6, 2019, the Chief
Justice extended the time within which to file a petition
for a writ of certiorari to and including July 10, 2019.
On July 3, 2019, the Chief Justice further extended the
time to and including August 9, 2019. The judgment of
the court of appeals in Daniels was entered on July 22,
2019. The jurisdiction of this Court is invoked under
28 U.S.C. 1259(2).
STATUTORY AND CONSTITUTIONAL
PROVISIONS INVOLVED

At the times of respondents’ offenses in 1998 and
2000, Article 43(a) of the Uniform Code of Military Justice (UCMJ) provided that a “person charged with absence without leave or missing movement in time of war,
or with any offense punishable by death, may be tried
and punished at any time without limitation.” 10 U.S.C.
843(a) (1994). Article 120(a) of the UCMJ provided that
any “person subject to [the UCMJ] who commits an act
of sexual intercourse, by force and without consent, is
guilty of rape and shall be punished by death or such
other punishment as a court-martial may direct.” 10
U.S.C. 920(a) (1994).

3
The current version of Article 43(a) of the UCMJ
provides that a “person charged with absence without
leave or missing movement in time of war, with murder,
rape or sexual assault, or rape or sexual assault of a
child, or with any other offense punishable by death,
may be tried and punished at any time without limitation.” 10 U.S.C. 843(a) (2012 & Supp. V 2017). The current version of Article 120(a) of the UCMJ provides in
relevant part that any “person subject to [the UCMJ]
who commits a sexual act upon another person by * * *
using unlawful force against that other person * * * is
guilty of rape and shall be punished as a court-martial
may direct.” 10 U.S.C. 920(a)(1).
The Eighth Amendment to the United States Constitution provides that “[e]xcessive bail shall not be required, nor excessive fines imposed, nor cruel and unusual punishments inflicted.” U.S. Const. Amend. VIII.
Other pertinent statutory provisions are reprinted in
the appendix to this petition. App., infra, 42a-45a.
STATEMENT

Following a general court-martial by the United
States Air Force, respondent Collins was convicted of
rape, in violation of 10 U.S.C. 920(a) (1994). App., infra,
2a. The Air Force Court of Criminal Appeals (AFCCA)
reversed. Id. at 2a-18a. The Judge Advocate General
(JAG) of the Air Force certified the case to the Court of
Appeals for the Armed Forces (CAAF), which summarily affirmed. Id. at 1a.
Following a general court-martial by the United
States Air Force, respondent Daniels was convicted of
rape, in violation of 10 U.S.C. 920(a) (1994), and other
offenses. App., infra, 21a-22a. The AFCCA reversed
the rape conviction. Id. at 21a-41a. The Air Force JAG

4
certified the AFCCA’s decision on the rape count for review, and the CAAF summarily affirmed. Id. at 19a20a.
A. Military Prosecution and Punishment of Rape

1. Sexual assault is “one of the most destructive factors in building a mission-focused military.” Memorandum from James N. Mattis, Secretary of Defense, to All
Members of the Department of Defense: Sexual Assault
Prevention and Awareness (Apr. 18, 2018), https://dod.
defense.gov/portals/1/features/2018/0418_sapr/saapos d004331-18-res.pdf. In addition to their “devastating
impact on victims,” sexual assaults by one military
service member against another “negatively affect morale, good order and discipline and the unit cohesion and
combat effectiveness of military personnel and units.”
United States Dep’t of Defense, Sex Crimes and the
UCMJ: A Report for the Joint Service Comm. on Military
Justice 2-3 (2005), http://jpp.whs.mil/public/docs/03_TopicAreas/02-Article_120/20150116/58_Report_SexCrimes_
UCMJ. pdf.
Compounding the problem, military victims “chronically underreport” sexual assaults for a number of
“unique” reasons, including the “hierarchical structure
of military service and its focus on obedience, order,
and mission before self.” United States Dep’t of Defense,
Report of the Response Systems to Adult Sexual Assault
Crimes Panel 59-60 (June 2014), http://responsesystems
panel.whs.mil/Public/docs/Reports/00_Final/RSP_Report_
Final_20140627.pdf. Some victims fear “reprisal or retaliation” and believe that “ ‘nothing will happen to the[]
perpetrator.’ ” Id. at 60 (citation omitted). Such concerns “erode trust” in military organizations, “violate[]
fundamental military values,” and “undermine[] a

5
commander’s ability to maintain good order and discipline.” United States Dep’t of Defense, Judicial Proceedings Panel: Report on Retaliation Related to Sexual Assault Offenses 17 (Feb. 2016), http://jpp.whs.mil/
Public/docs/08-Panel_Reports/04_JPP_Retaliation_
Report_Final_20160211.pdf. Investigating and prosecuting sexual assault is accordingly a top priority for the
United States military.
2. From November 1986 to January 2006, Article 43
of the UCMJ provided a default five-year statute of limitations for most criminal offenses, 10 U.S.C. 843(b)
(1994), along with an exception under which “any offense punishable by death[] may be tried and punished
at any time without limitation,” 10 U.S.C. 843(a) (1994).
Article 120 provided that the offense of “rape * * *
shall be punished by death or such other punishment as
a court-martial may direct.” 10 U.S.C. 920(a) (1994).
Indeed, “the military death penalty for rape ha[d] been
the rule for more than a century.” Kennedy v. Louisiana, 554 U.S. 945, 946 (2008) (statement of Kennedy, J.,
respecting the denial of rehearing).
In Willenbring v. Neurauter, 48 M.J. 152 (1998), the
CAAF addressed whether rape was “punishable by
death” for purposes of Article 43, notwithstanding this
Court’s holding in Coker v. Georgia, 433 U.S. 584 (1977),
that the Eighth Amendment prohibits imposition of the
death penalty on a civilian defendant convicted of raping an adult woman. The CAAF determined that rape
was “punishable by death” under Article 43—and therefore not subject to a limitations period—because the
UCMJ expressly authorized the death penalty for rape.
Willenbring, 48 M.J. at 178 (quoting 10 U.S.C. 843(a)
(1994)); see 10 U.S.C. 920(a) (1994). The CAAF addi-

6
tionally observed that federal courts of appeals had uniformly interpreted a parallel provision of the federal
criminal code, which provides that offenses “ punishable
by death ” may be prosecuted without a limitations period, 18 U.S.C. 3281, to likewise apply to any crime for
which the death penalty is authorized by statute. Willenbring, 48 M.J. at 180.
In United States v. Stebbins, 61 M.J. 366 (2005), the
CAAF reiterated its holding that rape was “punishable
by death” for purposes of Article 43— and therefore not
subject to a limitations period—because the UCMJ specifically authorized the death penalty for rape. Id. at
369. And in 2006, Congress amended Article 43 to provide expressly that “rape * * * may be tried and punished at any time without limitation.” 10 U.S.C. 843(a)
(2012 & Supp. V 2017); see National Defense Authorization Act for Fiscal Year 2006 (2006 NDAA), Pub. L. No.
109-163, § 553(a), 119 Stat. 3264. The accompanying
Conference Report explained that the amended limitations provision would “clarify” the continuing vitality of
the CAAF’s longstanding position that “rape is * * * an
offense with an unlimited statute of limitations.” H.R.
Conf. Rep. No. 360, 109th Cong., 1st Sess. 703 (2005);
see H.R. Rep. No. 89, 109th Cong., 1st Sess. 332 (2005)
(similar).
B. United States v. Collins

1. In August 2000, respondent Collins was a course
instructor at Sheppard Air Force Base (AFB) in Texas.
App., infra, 4a. One student in the course was a fellow
Air Force service member, HA. Ibid. One evening, HA
encountered Collins while she was “eating dinner alone
at a club on base.” Ibid. Collins “appeared to be intoxicated.” Ibid. HA suggested that he “take a taxi or
shuttle home,” but he “declined.” Ibid. HA then drove

7
Collins “to his on-base residence,” and helped him “out
of the vehicle and to his front door due to his apparently
impaired condition.” Ibid. “[O]nce inside,” Collins
“suddenly pushed HA against the wall and then threw
her onto the floor.” Ibid. “HA initially resisted,” but
Collins “struck her in the face.” Ibid. Collins “then
raped HA.” Ibid. HA suffered multiple injuries, including “a black eye,” ibid., “scratches on her face and
knuckles,” ibid., and “ trauma ” to her vaginal area, C.A.
App. 626-627.
Three days after the assault, HA “reluctantly admitted to a female instructor that she had been raped.”
App., infra, 4a. “As a result, HA was transported to a
hospital where she underwent a sexual assault forensic
exam,” and both the Air Force and civilian police initiated investigations. Ibid. At the time, HA feared that
Collins would “flunk [her] * * * or * * * kill [her]” if
she told anyone about the attack. C.A. App. 440. She
accordingly told investigators that “she was assaulted
by an unknown” man “in an off-base store parking lot.”
App., infra, 4a. When security-camera footage failed to
corroborate her account, HA admitted that she had
“made it up because she did not want to identify the attacker.” Ibid. She added that she “knew who the assailant was,” but she “refused to identify” him. Id. at 5a.
2. In April 2011, more than a decade after she was
raped, “HA made a restricted sexual assault report to
an Air Force mental health provider, stating that she
had previously been physically and sexually assaulted
by an instructor but ‘did not want to be involved.’ ”
App., infra, 5a. The provider “referred HA to a Sexual
Assault Response Coordinator, to whom HA also made
a restricted report that she had been sexually assaulted

8
by an active duty Air Force member at Sheppard AFB,
but she did not identify the assailant.” Ibid.
In March 2014, “HA made an unrestricted report to
the Chief of Military Justice at Sheppard AFB, this
time identifying [Collins] as having raped her at Sheppard AFB in 2000.” App., infra, 5a. The Air Force then
reopened its investigation. Ibid. Among other details
of the attack, HA told investigators that, during the
rape, she was “fixated” on a family portrait hanging on
the wall above the couch in the front room of Collins’s
home. C.A. App. 380; see id. at 437-439. HA described
in detail the individuals in the portrait: a biracial couple, a daughter, and a younger son. Id. at 541-542, 677678. She recalled where each member of the family was
sitting in the portrait and the respective hairstyles of
the mother and daughter. Ibid. She also provided Air
Force investigators with sketches of the portrait and
the room. Id. at 868-869.
Based on that information, Air Force investigators
obtained authorization to search Collins’s home at Eglin
AFB in Florida. C.A. App. 700-701, 865-867. There, in
a storage closet, they found a family portrait that
matched HA’s description. Id. at 701-706, 836, 887.
When investigators showed the portrait to HA, “she
placed her hands over her mouth,” “wip[ed] tears away
from her eyes,” and “stated [that] this photo was in [the]
house” the night she was raped. Id. at 706. During the
search, Air Force investigators also discovered a separate photograph taken in the front room of the house at
Sheppard AFB where Collins lived in 2000. Id. at 837,
888. That photograph showed the same family portrait,
hanging on the wall above the couch, just as HA had described. Id. at 888-891. Air Force authorities charged

9
Collins with raping HA in 2000, in violation of 10 U.S.C.
920(a) (1994). See App., infra, 5a.
3. At his 2016 court-martial, Collins “pleaded not
guilty” and “vigorously contested” the rape charge.
App., infra, 5a-6a. He did not, however, “object or move
to dismiss the charge and specification on the grounds
that they were barred by the statute of limitations in
effect at the time of the alleged offense.” Id. at 6a. Collins was found guilty of the rape charge and sentenced
to “a dishonorable discharge, confinement for 198
months, forfeiture of all pay and allowances, and [a] reduction” in grade. Id. at 3a.
Collins appealed to the AFCCA on various grounds.
While the appeal was pending, the CAAF decided
United States v. Mangahas, 77 M.J. 220 (2018), which
involved a 2015 prosecution for a rape committed in
1997. Id. at 221. Without holding argument on the issue, the CAAF overruled its prior decisions in Willenbring and Stebbins, supra, “to the extent that they hold
that rape was punishable by death” and therefore not
subject to a limitations period under the UCMJ. Mangahas, 77 M.J. at 222. The CAAF took the view that
Coker was controlling in the military context, id. at 223;
stated that “where the death penalty could never be imposed for the offense charged, the offense is not punishable by death for purposes of ” Article 43(a), id. at 224225; and thus concluded that the UCMJ’s default fiveyear statute of limitations applied to the 1997 rape at
issue in that case, see id. at 225.
The AFCCA applied Mangahas to Collins’s case and
reversed his conviction. App., infra, 2a-18a. The court
reasoned that, under Mangahas, the 2000 rape for
which Collins was convicted was subject to a five-year
limitations period, which expired before the Air Force

10
charged him in 2016. Id. at 6a-9a. The court added that
the limitations period had also expired before Congress
expressly provided in 2006 that rape can be prosecuted
without a limitations period, and that the 2006 NDAA
accordingly could not render the prosecution timely.
Id. at 16a-18a; see Stogner v. California, 539 U.S. 607,
616-617 (2003) (holding that the Ex Post Facto Clause
barred the extension of an expired limitations period).
Although Collins had not raised a limitations objection
at trial, the AFCCA concluded he was entitled to relief
under the plain-error doctrine. App., infra, 9a-14a. The
court did not address any of Collins’s other challenges
to his conviction. See id. at 3a.
4. The Air Force JAG certified the limitations issue
to the CAAF for appellate review. See App., infra, 1a.
In its briefing, the Air Force expressly stated that “[t]o
preserve the possibility of further appellate litigation,
the United States does not concede that Mangahas was
correctly decided.” Gov’t C.A. Reply Br. 15 n.6.
While the appeal in Collins’s case was pending at the
CAAF, the CAAF decided United States v. Briggs,
78 M.J. 289 (2019), petition for cert. pending, No. 19-108
(filed July 22, 2019), in which the CAAF reiterated its
holding in Mangahas and concluded that the 2006
NDAA provision stating expressly that rape may be
prosecuted without a limitations period does not apply
to rapes committed before enactment of the statute, id.
at 292-295. The CAAF then summarily affirmed the
AFCCA’s decision in Collins’s case. App., infra, 1a.
C. United States v. Daniels

1. In July 1998, respondent Daniels was stationed at
Minot AFB in North Dakota. He met TS, a civilian, at
the gym, and they exchanged phone numbers. R. 840843. Late in the evening of July 14, 1998, Daniels called

11
TS at her home, where she lived with her two-year-old
son. R. 843-844. Daniels asked if he could come over to
TS’s home, and TS reluctantly agreed. Ibid. After the
two talked for some time, Daniels repeatedly asked to
stay the night. R. 847. TS told him that he could not,
because her son slept in her bed and she had nowhere
else for Daniels to sleep. Ibid. Daniels, however,
“wouldn’t take ‘no’ as an answer,” and TS eventually
“got tired of fighting the issue.” R. 847-848. The two
then went to TS’s bed, where her son was sleeping.
R. 849. Daniels kept “trying to touch” TS, and she “kept
pushing him off.” R. 850. Eventually, Daniels “pushed
[TS’s] shorts aside” and “entered [her] with his penis”
without consent. R. 852. Daniels left the next morning
and called TS later in the day as if “nothing happened.”
R. 854.
TS told a friend about the rape, who reported it to
the local police. R. 854-855. The Air Force also opened
an investigation. App., infra, 25a. TS ultimately “declined to participate in the investigation,” ibid., in part
because the police told her the crime “would be very
hard to prove,” R. 855. TS subsequently “ran away”
from Minot because she “wanted this to go away.”
R. 856.
2. Seventeen years later, in 2015, a police detective
in Fairfax County, Virginia, contacted TS about Daniels. App., infra, 24a-25a. The detective was investigating Daniels for stalking a woman with whom he had previously had a romantic relationship. Id. at 24a. In the
course of that investigation, the detective discovered
classified information at Daniels’s home, which led the
detective to contact Air Force investigators. Id. at 25a.
Air Force investigators told the detective that Daniels
had been investigated for raping TS in 1998. Ibid.

12
When the detective contacted TS, she “agreed to go
forward with the * * * rape allegation.” App., infra,
24a. Daniels was then charged with rape, in violation of
10 U.S.C. 920(a) (1994), and other violations of military
law, App., infra, 21a-26a. He was convicted by a courtmartial in 2017 and sentenced to “a dismissal, confinement for three years, and a reprimand.” Id. at 22a. The
convening authority approved the sentence with the period of confinement reduced to two years and 252 days.
Ibid.
Daniels appealed to the AFCCA. App., infra, 22-23a.
As in Collins’s case, the AFCCA reversed the conviction
in light of the CAAF’s recently issued decision in Mangahas, which abrogated prior decisions under which
military rapes could be prosecuted at any time. See
77 M.J. at 222-225. The AFCCA stated that the Air
Force’s 2017 prosecution of Daniels for a 1998 rape was
barred by the five-year statute of limitations in 10
U.S.C. 843(b) (1994), as interpreted by the CAAF in
Mangahas and Collins. App., infra, 26a-28a. The
AFCCA set aside an additional conviction and remanded for resentencing. Id. at 40a-41a.
3. The Air Force JAG certified to the CAAF the
AFCCA’s holding that Daniels’s rape charge was
barred by the statute of limitations. App., infra, 19a.
While maintaining that Mangahas and the CAAF’s subsequent decision in Briggs were “incorrectly decided,”
the government acknowledged that the AFCCA’s decision reversing Daniels’s rape conviction should be summarily affirmed if the CAAF were not willing to reconsider those recent precedents. Gov’t Mot. for Summ.
Disposition 1-2. The CAAF summarily affirmed the
AFCCA’s decision. App., infra, 19a-20a.

13
REASONS FOR GRANTING THE PETITION

This petition for a writ of certiorari presents the
same question of exceptional importance to military justice as the government’s recent petition in United
States v. Briggs, No. 19-108 (filed July 22, 2019). For
reasons explained below, the Court should grant this
petition and the petition in Briggs, and then consolidate
the cases for briefing, argument, and decision.
1. In Briggs, the Air Force brought a 2014 prosecution for a 2005 rape. United States v. Briggs, 78 M.J.
289, 290 (C.A.A.F. 2019). Relying on its recent decision
in United States v. Mangahas, 77 M.J. 220 (2018), which
overruled longstanding precedent that had allowed for
the prosecution of rape offenses at any time, the CAAF
concluded that the Air Force’s prosecution of Briggs
was barred by the statute of limitations in force at the
time of his 2005 offense, which (as relevant here) provided a five-year limitations period for all offenses except those “punishable by death,” 10 U.S.C. 843(a)
(2000). In the CAAF’s revised view, rape was not “punishable by death” for purposes of that statute, ibid., because this Court had held in Coker v. Georgia, 433 U.S.
584 (1977), that the Eighth Amendment prohibits imposition of the death penalty on a civilian defendant convicted of raping an adult woman, see Briggs, 78 M.J. at
292; accord Mangahas, 77 M.J. at 222-225. The CAAF
in Briggs further concluded that Congress’s 2006 amendment to the UCMJ, which expressly provided that rape
could be punished without a time limitation, see
10 U.S.C. 843(a) (2012 & Supp. V 2017), could not be applied to pre-2006 rapes, because doing so would constitute an impermissible retroactive application of the law.
78 M.J. at 292-295.

14
As the government explained in its petition for a writ
of certiorari in Briggs, both of the CAAF’s conclusions
in that case are incorrect. See Pet. at 11-22, Briggs, supra (No. 19-108) (Briggs Pet.). First, rape was “punishable by death” for purposes of the statute of limitations
in force from 1986 to 2006, 10 U.S.C. 843(a) (2000), because the UCMJ at that time provided that rape could
be “punished by death,” 10 U.S.C. 920(a) (2000), and
that legislative determination controls the statute-oflimitations question. See Briggs Pet. 12-16. Moreover,
even if “punishable by death” in the statute of limitations meant constitutionally “punishable by death,”
10 U.S.C. 843(a) (2000), Congress has authority to determine that capital punishment should be available for
military rape, because crimes in the military context are
not subject to the same constitutional constraints as
punishments for assertedly analogous crimes in the civilian context, see Briggs Pet. 16-20.
Second, the Air Force’s prosecution of Briggs for a
2005 rape was permissible under Congress’s 2006
amendment to the statute of limitations, which provided
that “rape * * * may be tried and punished at any time
without limitation.” 10 U.S.C. 843(a) (2012 & Supp. V
2017). Because the 2006 amendment codified the
CAAF’s then-longstanding interpretation that rape
could be prosecuted without a time limitation, see
United States v. Stebbins, 61 M.J. 366, 369 (2005); Willenbring v. Neurauter, 48 M.J. 152, 178 (1998), Briggs
had fair notice in 2005 that he could be prosecuted for
rape without a time limitation, and the presumption
against retroactivity does not render it inapplicable.
See Briggs Pet. 20-22. Nor does application of the 2006
amendment to a 2005 rape create an Ex Post Facto
Clause difficulty, because that Clause does not bar a

15
legislature from extending an unexpired limitations period (i.e., the default five-year limitations period that
would otherwise apply). Ibid.; see Stogner v. California, 539 U.S. 607, 616-617 (2003).
2. The first of the government’s arguments in
Briggs applies with full force here. The rapes committed by respondent Collins in 2000 and respondent Daniels in 1998 were “punishable by death” and therefore
not subject to a time limitation under the statute of limitations then in effect. 10 U.S.C. 843(a) (1994). That is
true both because (1) the term “punishable by death”
refers only to the statutorily authorized punishment,
which for rape in 1998 and 2000 was death, see 10 U.S.C.
920(a) (1994), and (2) even if “punishable by death”
meant constitutionally punishable by death,” ibid.,
rape was constitutionally punishable by death in the
military at the time of respondents’ offenses in 1998 and
2000, see Briggs Pet. 11-20.
The government’s second argument in Briggs—that,
even if the CAAF were correct that the pre-2006 limitations period was only five years, a 2014 prosecution for
a 2005 rape was permissible under Congress’s 2006
amendment of the statute of limitations—would not in
itself be dispositive of respondents’ cases here. Unlike
in Briggs, respondents’ 1998 and 2000 rapes occurred
more than five years before the 2006 amendment, so a
five-year limitations period would have expired prior to
its enactment. As a result, a decision in Briggs premised solely on the second argument would implicate a
further issue of whether applying the 2006 amendment
to respondents’ cases should be viewed as an attempt to
extend an already-expired limitations period, which this
Court has held to be barred by the Ex Post Facto
Clause. See Stogner, 539 U.S. at 616-617.

16
3. This Court should grant both the petition in
Briggs and this petition. If the Court were to resolve
Briggs based on the government’s first argument—that
rape was “punishable by death” for purposes of the statute of limitations in force between 1986 and 2006—the
prosecutions of respondents here would be permissible
on the same grounds. But if the Court were to resolve
Briggs based on the government’s second argument (regarding the effect of the 2006 amendment on a prosecution for a 2005 rape), further questions would remain
about the validity of the prosecutions of respondents
Collins and Daniels. Granting both petitions (rather
than holding this petition for a decision in Briggs) therefore ensures that the Court will be able to efficiently resolve all the issues presented by these cases.
As discussed in the government’s petition in Briggs,
the question presented warrants this Court’s review.
See Briggs Pet. 22-26. Although the CAAF interpretation at issue involves only military rapes committed between 1986 and 2006, the military continues to receive
reports of such rapes, and Congress would not have
wanted the perpetrators to escape justice. As explained
above, rape is not only devastating to military discipline
and effectiveness, but is also difficult to uncover and
often reported only years after the fact. See pp. 4-5,
supra. These cases illustrate that dynamic. Respondent Collins violently raped a junior Air Force service
member who was a student in his course, but she did not
name her assailant for many years, in part out of fear
that he would retaliate. See p. 7, supra. Respondent
Daniels raped a victim living in a military community
who declined to pursue the case because she feared that
she would not be believed. See p. 11, supra. The military continues to investigate reports of similar crimes.

17
See Briggs Pet. 23. Even if the number of cases affected
by the CAAF’s decisions is not especially high, they are
exceptionally important to the victims, the military, and
Congress.
Reviewing the CAAF decisions underlying this petition in conjunction with Briggs would allow the Court to
consider the full range of cases—both those in which the
rape occurred more than five years before 2006 and
those in which it did not—that are affected by the
CAAF’s errors. At a minimum, however, the Court
should hold this petition pending its resolution of the
petition in Briggs and then dispose of this petition as
appropriate.
CONCLUSION

The petition for a writ of certiorari should be granted,
along with the petition for a writ of certiorari in United
States v. Briggs, No. 19-108 (filed July 22, 2019), and consolidated for briefing and argument. In the alternative,
this petition should be held pending the Court’s resolution of the petition in Briggs and then disposed of as appropriate.
Respectfully submitted.
JULIE L. PITVOREC
Col., USAF
Chief
MARY ELLEN PAYNE
Associate Chief
BRIAN C. MASON
Lt. Col., USAF
Deputy Chief
Government Trial and
Appellate Counsel Division
Department of the Air Force

AUGUST 2019

NOEL J. FRANCISCO
Solicitor General
BRIAN A. BENCZKOWSKI
Assistant Attorney General
ERIC J. FEIGIN
CHRISTOPHER G. MICHEL
Assistants to the Solicitor
General
PAUL T. CRANE
Attorney

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE ARMED FORCES
DAILY JOURNAL
Tuesday, Mar. 12, 2019

*

*

*

*

*

Appeals—Summary Disposition
No. 19-0052/AF. U.S. v. Richard D. Collins.

CCA 39296.

On consideration of the three issues certified by the
Judge Advocate General of the Air Force, 78 M.J. 190
(C.A.A.F. 2018), the briefs of the parties, and Appellee’s
motion to summarily affirm filed on February 26, 2019,
and in light United States v. Briggs,
M.J.
(C.A.A.F. Feb. 22, 2019), it is ordered that the three certified issues are answered in the negative, and the decision of the United States Air Force Court of Criminal
Appeals is therefore affirmed. Appellee’s motion is denied as moot.
*

*

*

(1a)

*

*

2a
APPENDIX B
UNITED STATES AIR FORCE
COURT OF CRIMINAL APPEALS

No. ACM 39296
UNITED STATES, APPELLEE
v.
RICHARD D. COLLINS
MASTER SERGEANT (E-7), U.S. AIR FORCE,
APPELLANT

Appeal from the United States Air Force Trial Judiciary
Decided: 23 July 2018 1
PUBLISHED OPINION OF THE COURT

Military Judge:

TIFFANY M. WAGNER.

Before: JOHNSON, MINK, and DENNIS, Appellate Military Judges.
Senior Judge JOHNSON delivered the opinion of the court,
in which Judge MINK and Judge DENNIS joined.
JOHNSON, Senior Judge:
Appellant was found guilty, contrary to his pleas, of
one specification of rape in violation of Article 120, Uniform Code of Military Justice (UCMJ), 10 U.S.C. § 920.
1

We heard oral argument in this case on 28 June 2018.

3a
A general court-martial composed of officer and enlisted
members sentenced Appellant to a dishonorable discharge, confinement for 198 months, forfeiture of all pay
and allowances, and reduction to the grade of E-1. The
convening authority approved the adjudged sentence.
Appellant raises seven issues on appeal: (1) whether
the statute of limitations had run on the alleged offense
of rape; (2) whether the evidence is factually insufficient
to support the conviction; (3) whether Appellant was denied effective assistance of counsel guaranteed by the
Sixth Amendment 2 where his trial defense counsel failed
to present evidence of an alternative suspect; (4) whether
Appellant was subjected to unreasonable search and seizure in violation of the Fourth Amendment; 3 (5) whether
Appellant was denied his Sixth Amendment right to confrontation where the military judge permitted a prosecution witness to testify by remote means; (6) whether
Appellant’s Fifth Amendment 4 due process rights were
violated by the loss of exculpatory evidence in the 15 years
between the alleged offense and the court-martial; and
(7) whether the convening authority committed unlawful
command influence. 5 Because, as to the first issue, our
superior court’s holding in United States v. Mangahas,
77 M.J. 220, 225 (C.A.A.F. 2018), compels us to set aside
the findings and sentence and to dismiss the charge and
specification, we do not address the remaining issues.

U.S. CONST. amend. VI.
U.S. CONST. amend. IV.
4
U.S. CONST. amend. V.
5
Appellant personally asserts issues (6) and (7) pursuant to United
States v. Grostefon, 12 M.J. 431 (C.M.A. 1982).
2
3

4a
I.

BACKGROUND

In August 2000, HA was a young Airman attending
her initial training as a radiology technician at Sheppard
Air Force Base (AFB), Texas. Appellant was one of
her course instructors. At trial, HA testified that on
Friday, 25 August 2000, she encountered Appellant
when she was eating dinner alone at a club on base.
Appellant appeared to be intoxicated. After Appellant
declined HA’s suggestion that he take a taxi or shuttle
home, HA drove Appellant to his on-base residence.
HA helped Appellant out of the vehicle and to his front
door due to his apparently impaired condition. However, once inside the door, Appellant suddenly pushed
HA against the wall and then threw her onto the floor.
HA initially resisted until Appellant struck her in the
face. Appellant then raped HA.
On the morning of Monday, 28 August 2000, HA arrived for class with a black eye and scratches on her face
and knuckles. HA reluctantly admitted to a female instructor that she had been raped. As a result, HA was
transported to a hospital where she underwent a sexual
assault forensic exam (SAFE), and the Air Force Office
of Special Investigations (AFOSI) and civilian police initiated investigations.
Initially, HA told AFOSI she was assaulted by an
unknown male who digitally penetrated her in an offbase store parking lot the preceding weekend. When
security camera video from the store HA identified
failed to corroborate HA’s statements, AFOSI agents
confronted her. HA admitted her account of the assault was not true. She told the agents she made it up
because she did not want to identify the attacker, but
she had been pressured at the hospital to say what had

5a
happened. HA admitted she knew who the assailant
was, but she said she did not want to “ruin a family.”
She denied that it had been one of her course instructors. Because HA refused to identify the perpetrator,
AFOSI and the civilian police eventually dropped their
investigations. Civilian authorities destroyed the SAFE
kit in 2002.
HA separated from the military in 2003 and then
later returned to active duty in 2007. In April 2011, HA
made a restricted sexual assault report to an Air Force
mental health provider, stating that she had previously
been physically and sexually assaulted by an instructor
but “did not want to be involved.” The provider referred
HA to a Sexual Assault Response Coordinator, to whom
HA also made a restricted report that she had been sexually assaulted by an active duty Air Force member at
Sheppard AFB, but she did not identify the assailant.
These restricted reports were not referred to law enforcement or investigated. HA separated from the Air
Force again in 2011.
In March 2014, HA made an unrestricted report to
the Chief of Military Justice at Sheppard AFB, this time
identifying Appellant as having raped her at Sheppard
AFB in 2000. This report led AFOSI to reinitiate the
investigation. A single charge and specification of rape
were preferred against Appellant and received by the
summary court-martial convening authority on 17 March
2016. On 6 September 2016, the charge and specification were referred for trial by a general court-martial.
Appellant’s court-martial took place at Hurlburt Field,
Florida, on 17 November 2016, and at Eglin AFB, Florida, on 21-26 February 2017. At trial, Appellant pleaded
not guilty and the Defense vigorously contested the

6a
charge and specification. However, the Defense did
not object or move to dismiss the charge and specification on the grounds that they were barred by the statute
of limitations in effect at the time of the alleged offense.
II.
A.

DISCUSSION

Law

The applicable statute of limitations is a question of
law that we review de novo. Mangahas, 77 M.J. at 222
(citing United States v. Lopez de Victoria, 66 M.J. 67, 73
(C.A.A.F. 2008)). “An accused is subject to the statute
of limitations in force at the time of the offense.” Id. (citing Toussie v. United States, 397 U.S. 112, 115 (1970)).
However, “failure to make the timely assertion of a
right” constitutes forfeiture, whereas the “intentional
relinquishment or abandonment of a known right” constitutes waiver. United States v. Ahern, 76 M.J. 194,
197 (C.A.A.F. 2017). Where an appellant forfeits a right
by failing to make a timely assertion at trial, appellate
courts will review the forfeited issue for plain error.
Id. (citing United States v. Gladue, 67 M.J. 311, 313
(C.A.A.F. 2009)). In a plain error analysis the appellant “has the burden of demonstrating that: (1) there
was error; (2) the error was plain or obvious; and (3) the
error materially prejudiced a substantial right of the
accused.” United States v. Girouard, 70 M.J. 5, 11
(C.A.A.F. 2011). Waiver, by contrast, “leaves no error
to correct on appeal.” Ahern, 76 M.J. at 197 (citing
United States v. Campos, 67 M.J. 330, 332 (C.A.A.F.
2009)).
Article 43, UCMJ, 10 U.S.C. § 843, provides the statute of limitations for offenses under the Code. The version of Article 43 in effect in August 2000 stated, inter

7a
alia, “A person charged with absence without leave or
missing movement in time of war, or with any offense
punishable by death, may be tried and punished at any
time without limitation.” 10 U.S.C. § 843(a) (2000).
Otherwise, the general rule was that “a person charged
with an offense is not liable to be tried by court-martial
if the offense was committed more than five years before
the receipt of sworn charges” by a summary court-martial
convening authority. 10 U.S.C. § 843(b)(1) (2000).
In Coker v. Georgia, 433 U.S. 584, 592 (1977), the
United States Supreme Court held that the Eighth
Amendment 6 forbids imposing the death penalty for the
crime of rape of an adult woman. Coker is binding
precedent for Air Force courts-martial. United States
v. McReynolds, 9 M.J. 881, 882 (A.F.C.M.R. 1980) (per
curiam); see Mangahas, 77 M.J. at 223; see also United
States v. Hickson, 22 M.J. 146, 154 n.10 (C.M.A. 1986)
(stating that in light of Coker, the death penalty for rape
may not be constitutionally inflicted in absence of aggravating circumstances). However, in August 2000, the
Manual for Courts-Martial continued to provide that
death was an authorized punishment for the crime of rape
under Article 120, UCMJ. Manual for Court-Martial,
United States (2000 ed.), pt. IV, ¶ 45.e.(1).
In Willenbring v. Neurauter, 48 M.J. 152, 180
(C.A.A.F. 1998), the United States Court of Appeals for
the Armed Forces (CAAF) unanimously held that, Coker
notwithstanding, as a matter of statutory interpretation
“rape is an ‘offense punishable by death’ for purposes of
exempting it from the 5-year statute of limitations of Article 43(b)(1).” See also United States v. Stebbins,
6

U.S. CONST. amend. VIII.

8a
61 M.J. 366, 369 (C.A.A.F. 2005) (quoting Willenbring,
48 M.J. at 178) (“[T]he question of whether the death
penalty may be imposed, given the facts and circumstances of any particular case, does not control the statute of limitations issue.”)
In 2006, Congress amended Article 43, UCMJ, to provide that “[a] person charged with . . . rape or rape
of a child . . . may be tried or punished at any time
without limitation.” 10 U.S.C. § 843(a) (2006). 7
However, the CAAF’s recent decision in Mangahas
explicitly overruled its holding in Willenbring that under the pre-2006 version of Article 43, UCMJ, the offense of rape was exempt from the general five-year
statute of limitations. 77 M.J. at 223-25. Finding that
Willenbring was “badly-reasoned” and risked “ ‘undermining public confidence in the law,’ ” the CAAF unanimously held “where the death penalty could never be imposed for the offense charged, the offense is not punishable by death for purposes of Article 43, UCMJ.” Id.
at 224-25 (quoting United States v. Quick, 74 M.J. 332,
336 (C.A.A.F. 2015)). Therefore, because the alleged
rape of an adult woman in Mangahas occurred in 1997,
18 years before the charge and specification were received by the summary court-martial convening authority, the CAAF dismissed the charge and specification.
Id. at 225.

In 2013, Congress again amended Article 43, UCMJ, to additionally exclude the offenses of sexual assault and sexual assault of a
child from the five-year statute of limitations. National Defense
Authorization Act for Fiscal Year 2014, Pub. L. No. 113-66, § 1703,
127 Stat. 672, 958 (2013) (codified as 10 U.S.C. § 843(a)).
7

9a
Rule for Courts-Martial (R.C.M.) 907 provides that
the running of the statute of limitations under Article
43, UCMJ, is waivable grounds for a motion to dismiss a
charge and specification without trial. R.C.M. 907(b)(2)(B)
further provides “that, if it appears that the accused is
unaware of the right to assert the statute of limitations
in bar of trial, the military judge shall inform the accused of this right.” “ ‘[W]henever it appears that the
statute of limitations has run against an offense,’ that
fact will be brought to the attention of the accused by
the court.” United States v. Salter, 20 M.J. 116, 117
(C.M.A. 1985) (quoting United States v. Rodgers,
24 C.M.R. 36, 38 (C.M.A. 1957)).
“[O]n direct review, we apply the clear law at the time
of appeal, not the time of trial.” United States v. Mullins, 69 M.J. 113, 116 (C.A.A.F. 2010) (citing United
States v. Harcrow, 66 M.J. 154, 159 (C.A.A.F. 2008)).
B.

Analysis

Appellant contends that in light of Mangahas, the
military judge committed plain error which requires this
court to set aside the findings and sentence and to dismiss the charge and specification. We agree.
Under Mullins and Harcrow, we must apply the
clear law at the time of appeal to cases that, like Appellant’s, are pending direct review. Mullins, 69 M.J. at
116. In light of Mangahas, the statute of limitations
applicable to the charged offense of rape in violation of
Article 120, UCMJ, committed on or about 25 August
2000 was five years. See Mangahas, 77 M.J. at 225.
Therefore, the statute of limitations in Appellant’s case
expired in August 2005, more than ten years before the
charge and specification were preferred and delivered

10a
to the summary court-martial convening authority in
March 2016. Accordingly, we must evaluate the events
at trial in this light.
R.C.M. 907(b)(2)(B) required the military judge to
inform Appellant at trial of Appellant’s apparent right
to assert the statute of limitations defense to bar the
only charge and specification against him. See Salter,
20 M.J. at 117. The military judge’s failure to do so,
like trial defense counsel’s failure to assert the defense,
was understandable in light of the CAAF’s holding in
Willenbring. Nevertheless, applying the CAAF’s clear
holding in Mangahas that the five-year statute of limitations had long since run, the military judge’s failure to
comply with R.C.M. 907(b)(2)(B) was an error that was
plain and obvious. 8 See Girouard, 70 M.J. at 11. Moreover, the error was plainly materially prejudicial to Appellant’s substantial rights because the statute of limitations was a complete defense to the only charge and
specification in the case. Id. Although the statute of
Appellant contends the applicable standard of review is plain error. This is the standard the CAAF applied in both Mullins,
69 M.J. at 116, and Harcrow, 66 M.J. at 159. Each of those cases
dealt with changes to applicable precedent arising after trial but
during the course of direct appellate review, where the appellants
had failed to make evidentiary objections at trial. Mullins, 69 M.J.
at 116-17 (applying United States v. Brooks, 64 M.J. 325 (C.A.A.F.
2007)); Harcrow, 66 M.J. at 159 (applying Crawford v. Washington,
541 U.S. 36 (2004)). Appellant’s case, in contrast, involves the military judge’s failure to perform an affirmative duty imposed by
R.C.M. 907(b)(2)(B), regardless of Appellant’s failure to raise the issue. It might be argued that the plain error standard applicable to
forfeited issues is inapposite, and that de novo is the appropriate
standard of review. However, we need not resolve this question because we agree with Appellant that the military judge committed
plain error in light of Mangahas.
8

11a
limitations is waivable, at oral argument the Government conceded it could articulate no plausible reason why
Appellant would have knowingly waived the defense had
he understood it was available in this contested trial.
Nor can we discern any such reason.
The Government attempts to distinguish Mangahas
on the basis that, in that case, the accused moved to dismiss the charge and specification of rape based on the
statute of limitations in spite of Willenbring, whereas in
the instant case Appellant did not. The Government
relies heavily on the United States Supreme Court’s decision in Musacchio v. United States, 136 S. Ct. 709
(2016). In Musacchio, the petitioner failed to invoke
the statute of limitations bar in 18 U.S.C. § 3282(a) 9 at
trial but attempted to do so on appeal. Id. at 713. The
Court first found the statute “provides a nonjurisdictional defense, not a jurisdictional limit” on prosecution.
Id. at 718. The Court then held:
Because § 3282(a) does not impose a jurisdictional
limit, the failure to raise it at or before trial means
that it is reviewable on appeal—if at all—only for
plain error. . . . We conclude, however, that a
district court’s failure to enforce an unraised limitations defense under § 3282(a) cannot be a plain error.
. . .
When a defendant fails to press a limitations defense,
the defense does not become part of the case and the
18 U.S.C. § 3282(a) provides that “[e]xcept as otherwise expressly provided by law, no person shall be prosecuted, tried, or punished for any offense, not capital, unless the indictment is found or
the information is instituted within five years next after such offense
shall have been committed.”
9

12a
Government does not otherwise have the burden of
proving that it filed a timely indictment. When a defendant does not press the defense, then, there is no
error for an appellate court to correct—and certainly
no plain error.
A defendant thus cannot successfully raise the statuteof-limitations defense in § 3282(a) for the first time
on appeal.
Id. The Government contends the statute of limitations in Article 43, UCMJ, like that in 18 U.S.C. § 3282,
is a nonjurisdictional, available defense that an accused
must assert in order to make it part of the case. The
Government argues that, where an accused fails to assert the defense for any reason—including, as in Appellant’s case, the apparent unavailability of the defense in
light of clear existing precedent—under Musacchio a
plain error analysis is unnecessary because the defense
is simply not “part of the case.”
The Government appears to essentially argue that
Musacchio created a new standard of review, or rather
a standard of non-review, apparently unique to statute
of limitations jurisprudence. The Government does
not argue Appellant waived the statute of limitation bar,
which involves the “intentional relinquishment or abandonment of a known right.” Ahern, 76 M.J. at 197.
Indeed, it is apparent that Appellant, like the military
judge and other trial participants, was understandably
unaware such a defense was available. See United States
v. Hoffmann,
M.J.
, No. 18-0002/AR, 2018 CAAF
LEXIS 226 (C.A.A.F. 7 May 2018) (mem.) (“[W]e do not
construe the failure to object to what was the settled law
at the time as an intentional relinquishment of a known
right. . . . ”) Similarly, the Government cannot

13a
prevail under the plain error standard of review applicable to forfeited issues because the combination of
Mangahas, Mullins/Harcrow, R.C.M. 907(b)(2)(B), and
Salter make it apparent the military judge plainly erred
by failing to inform Appellant at trial that the statute
had run on the charge of rape. However, the Government seizes on the strong language in Musacchio that
an unraised statute of limitations defense does not become part of the case and cannot be successfully raised
on appeal to mean some principle other than waiver or
forfeiture is at work. We are not persuaded.
To begin with, Musacchio may be distinguished from
the instant case on multiple grounds. Musacchio did
not interpret Article 43, UCMJ, which governs trials by
courts-martial; rather, it addressed the operation of
18 U.S.C. § 3282, applicable to civilian prosecutions.
By design, the civilian and military justice systems employ different rules of procedure. In particular, our superior court has recognized “that Congress, in drafting
Article 43, did not intend to create, in sections (b) and
(c), a mirror image of the rule then and now extant in
federal [civilian] law.” United States v. Tunnell, 23 M.J.
110, 113 (C.M.A. 1986). In addition, Musacchio did not
address a situation where the statute of limitations defense was apparently unavailable at the time of trial
based on clear existing precedent that was subsequently
overruled during the pendency of the appeal. It is not
clear to us that the Court’s analysis would be the same
in such a situation. Furthermore, Musacchio did not
address the affirmative duty to bring the statutory bar
to the attention of the accused imposed on the trial judge
by R.C.M. 907(b)(2)(B), which has no civilian equivalent.

14a
Even setting these distinctions aside, the Government
misconstrues the Court’s approach to the applicable
standard of review in Musacchio. It is true that, as
the Government states, the Court expressly did not decide whether Musacchio’s failure to raise the statute of
limitations constituted waiver or forfeiture. Musacchio,
136 S. Ct. at 718 n.3. However, this was not because it
found neither applied; it was because, even assuming a
plain error standard of review, the trial judge’s failure
to raise 18 U.S.C. § 3282 sua sponte in a civilian trial
would never meet the criteria for relief under the plain
error standard of review. The Court found a defendant
“cannot successfully raise the statute-of-limitations defense in § 3282(a) for the first time on appeal” not because plain error was not the applicable standard of review, but by evaluating the alleged error in light of the
plain error standard and finding it could never be met.
Id. at 718.
In light of the military judge’s affirmative obligation
under R.C.M. 907(b)(2)(B) to raise the statute of limitations issue, Appellant’s situation is clearly different.
Again, there is no indication Appellant “intentionally relinquished” an available statute of limitations defense,
and therefore waiver is inapplicable. Ahern, 76 M.J. at
197. Under Mangahas, Mullins, R.C.M. 907(b)(2)(B),
and Salter, the military judge was required to inform
Appellant the statutory bar was available, and she
plainly erred to the material prejudice of Appellant’s
substantial rights by failing to do so. See Girouard,
70 M.J. at 11. Therefore, we cannot affirm the conviction.
The Government advances a second argument, inspired by the CAAF’s recent decision in United States
M.J.
, No. 17-0285, 2018 CAAF
v. Williams,

15a
LEXIS 365 (C.A.A.F. 27 Jun. 2018), to the effect that
the 2006 amendment to Article 43, UCMJ, retroactively
applied to the August 2000 rape charge, and therefore
the statute of limitations never actually expired, Mangahas notwithstanding. In Williams, the CAAF set
aside findings of guilty with respect to four specifications of sexual offenses based upon an erroneous propensity instruction that was not harmless beyond a reasonable doubt. Williams, 2018 CAAF LEXIS 365, at
*7-14; see United States v. Hills, 75 M.J. 350, 356
(C.A.A.F. 2016). Apparently, one set-aside specification alleged rape on divers occasions between late 2000
and early 2003. Williams, 2018 CAAF LEXIS 365, at
*3-4. In its decretal paragraph, the CAAF stated,
inter alia:
The record is returned to the Judge Advocate General of the Army with a rehearing as to the Specification of Charge I authorized to the extent that the
charge and specification are not barred by the statute
of limitations. See United States v. Mangahas,
77 M.J. 220 (C.A.A.F. 2018); United States v. Grimes,
142 F.3d 1342, 1351 (11th Cir. 1998) (recognizing that
the federal circuits are in agreement “that extending
a limitations period before the prosecution is barred
does not violate the Ex Post Facto Clause”). But
see United States v. Lopez de Victoria, 66 M.J. 67, 7374 (C.A.A.F. 2008) (holding that the 2003 amendment
to Article 43, UCMJ, 10 U.S.C. § 843, 10 did not retroactively extend the statute of limitations due to statutory construction).

This change to Article 43, UCMJ, modified the statute of limitations with respect to certain offenses against children and did not
10

16a
Williams, 2018 CAAF LEXIS 365, at *15 (footnote inserted). In a footnote, the CAAF commented “[t]he
parties may address any potential retroactivity issues
concerning the statute of limitations on remand or at the
rehearing.” Id. at *15 n.5.
Taking its cue from Williams, the Government cites
Grimes and a series of other federal circuit decisions for
the principle that extending the applicable statute of
limitations before the existing statute of limitations
has expired on a particular offense does not violate the
Ex Post Facto Clause. 11 Grimes, 142 F.3d at 1351; see
United States v. Taliaferro, 979 F.2d 1399, 1402 (10th Cir.
1992); United States v. Knipp, 963 F.2d 839, 843-44
(6th Cir. 1992); United States v. Madia, 955 F.2d 538,
540 (8th Cir. 1992); United States v. Richardson, 512 F.2d
105, 106 (3d Cir. 1975); Clements v. United States,
266 F.2d 397, 398-99 (9th Cir. 1959). The Government
goes on to distinguish the 2003 amendment to Article 43
addressed in Lopez de Victoria from the 2006 amendment as a matter of statutory construction, and concludes the latter unlike the former was intended to apply
to earlier offenses for which the statutory period had not
yet run.
We acknowledge there is an unresolved question of
whether and to what extent the 2006 amendment to Article 43 extended the statute of limitations period for
rapes occurring within the five years preceding the
amendment’s effective date. One day this court may be
called upon to address that question. But today is not
affect the statute of limitations applicable to Appellant’s case.
Lopez de Victoria, 66 M.J. at 71.
11
U.S. CONST. art. I, § 9, cl. 3.

See

17a
that day. It is unnecessary for us to reach those aspects of the Government’s argument because the fiveyear statute of limitations on the August 2000 rape
charged in Appellant’s case did run before the 2006
amendment.
The Government attempts to address this manifest
flaw in its position by arguing that at the time of both
the alleged offense in August 2000 and the 2006 amendment to Article 43, there was no statute of limitations for
rape under the existing precedent of Willenbring. The
Government argues Mangahas did “not reach the question of retroactivity,” and that “[e]ven if Mangahas
means that Willenbring is no longer good law in 2018,
Willenbring was good law at the time of the 2006 amendment.” However, the Government fundamentally misconceives the import of the CAAF’s decision in Mangahas. The meaning of Mangahas is that under Article 43, UCMJ, the statute of limitations for rape in 1997,
as well as in August 2000, was and always has been five
years. Any pronouncements to the contrary in Willenbring or elsewhere were simply wrong. See Mangahas,
77 M.J. at 223-25. As discussed above, there remains
an open question as to whether rapes committed prior
to but within five years of the 2006 amendment were
taken out of the statute of limitations. However, the
offense Appellant was charged with, unlike the specification at issue in Williams, is entirely outside that window. See Williams, 2018 CAAF LEXIS 365, at *3-4.
If we were to accept the Government’s argument, the
outcome of Mangahas would appear nonsensical. There,
the CAAF interpreted identical language in Article 43,
UCMJ, as applied in Appellant’s case. Finding Willenbring was “badly-reasoned” and explicitly overruling its

18a
interpretation of Article 43, the CAAF held the applicable statute of limitations for an alleged rape in 1997 was
five years, and dismissed the charge and specification.
Mangahas, 77 M.J. at 223-25. The same reasoning applies to an alleged rape that occurred in August 2000.
We are compelled to follow our superior court’s precedent and take similar action.
III.

CONCLUSION

The findings of guilt and the sentence are SET ASIDE.
The Charge and its Specification are DISMISSED. Article 66(c), (d), UCMJ, 10 U.S.C. § 866(c), (d).
FOR THE COURT
/s/

CAROL K. JOYCE
CAROL K. JOYCE
Clerk of the Court

19a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE ARMED FORCES
WASHINGTON, D.C.

USCA Dkt. No. 19-0345/AF
Crim. App. No. 39407
UNITED STATES, APPELLANT
v.
HUMPHREY DANIELS III, APPELLEE
ORDER

On consideration of the issue certified by the Judge
Advocate General of the Air Force,
M.J.
(C.A.A.F. Jun. 19, 2019), Appellant’s brief, and Appellant’s motion for a summary disposition, motion to suspend this Court’s rules, and motion to dispense with the
requirement to file a joint appendix all filed June 19,
2019, and in light of United States v. Mangahas, 77 M.J.
220 (C.A.A.F. 2018), it is, this 22nd day of July, 2019,
ORDERED:
That the motions are hereby granted; and
That the certified issue is answered in the affirmative, and the decision of the United States Air Force
Court of Criminal Appeals is therefore affirmed.

20a
For the Court,
/s/

Joseph R. Perlak
Clerk of the Court

cc: The Judge Advocate General of the Air Force
Appellate Defense Counsel (Schwartz)
Appellate Government Counsel (Payne)

21a
APPENDIX D
UNITED STATES AIR FORCE
COURT OF CRIMINAL APPEALS

No. ACM 39407
UNITED STATES, APPELLEE
v.
HUMPHREY DANIELS, III
LIEUTENANT COLONEL (O-5), U.S. AIR FORCE,
APPELLANT

Appeal from the United States Air Force Trial Judiciary
Decided: 18 June 2019
THIS IS AN UNPUBLISHED OPINION AND,
AS SUCH, DOES NOT SERVE AS PRECEDENT
UNDER AFCCA RULE OF PRACTICE AND
PROCEDURE 18.4

Before: HUYGEN, MINK, and LEWIS, Appellate Military
Judges.
Senior Judge HUYGEN delivered the opinion of the court,
in which Judge MINK and Judge LEWIS joined.
HUYGEN, Senior Judge:
A general court-martial composed of officer members
convicted Appellant, contrary to his pleas, of one specification of negligent dereliction of duty, one specifica-

22a
tion of rape, and four specifications of conduct unbecoming an officer and gentleman in violation of Articles 92,
120, and 133, Uniform Code of Military Justice (UCMJ),
10 U.S.C. §§ 892, 920, 933 1, 2 The members adjudged a
sentence of a dismissal, confinement for three years, and
a reprimand. The convening authority approved 2 years
and 252 days of confinement but otherwise approved the
sentence as adjudged. The convening authority also
deferred the mandatory forfeiture of pay and allowances
from the effective date of the forfeiture until the date of
action.
Appellant raises through counsel seven assignments
of error (AOE): (1) Appellant’s conviction for rape
(Charge II) must be set aside under United States v.
Mangahas, 77 M.J. 220 (C.A.A.F. 2018); (2) his convictions for negligent dereliction of duty (Charge I) and
conduct unbecoming an officer and gentleman (Charge
III) are factually and legally insufficient; (3) Charge III
and its specifications fail to state an offense; (4) the military judge erred in admitting a transcript of Appellant’s testimony from his criminal trial in civilian court;
(5) the trial counsel engaged in prosecutorial misconduct
during closing and rebuttal argument; (6) the courtmartial panel members failed to comply with the military judge’s instructions; and (7) Appellant is entitled to
relief under United States v. Moreno, 63 M.J. 129
All references in this opinion to the Uniform Code of Military
Justice (UCMJ) are to the Manual for Courts-Martial, United
States (2016 ed.) (MCM), unless indicated otherwise. The version
of Article 120, UCMJ, at issue in Appellant’s case is found in the 1998
MCM.
2
The members found Appellant not guilty of one specification of
conduct unbecoming an officer and gentleman in violation of Article
133, UCMJ (Specification 4 of Charge III).
1

23a
(C.A.A.F. 2006), for the delay from the date his trial concluded until the date the convening authority took action. Pursuant to United States v. Grostefon, 12 M.J.
431 (C.M.A. 1982), Appellant raises an additional seven
AOE: (8) his conviction for rape is factually and legally
insufficient; (9) his trial defense counsel were ineffective
for failing to move to dismiss Charge III and its specifications for failure to state an offense; (10) the Government failed to disclose evidence as required under
Brady v. Maryland, 373 U.S. 83 (1963); (11) the military
judge erred in admitting a “911 phone call” into evidence; (12) the cumulative effect of errors substantially
impaired the fairness of Appellant’s trial; (13) the reference in the court-martial transcript to Appellant being
arraigned by a special court-martial means that the general court-martial that tried him lacked jurisdiction or
his sentence to confinement and a dismissal is unlawful;
and (14) the staff judge advocate (SJA) misadvised the
convening authority that the maximum punishment in
Appellant’s case was death.
We address below AOE (1), (2), (3), and (7). AOE (8)
is rendered moot by our resolution of AOE (1). We
have considered AOE (4)-(6) and (9)-(14); they warrant
no further discussion or relief. See United States v.
Matias, 25 M.J. 356, 361 (C.M.A. 1987). We find prejudicial error with regard to AOE (1) and set aside Appellant’s conviction for rape and the sentence. We also
set aside the finding of guilty for Specification 2 of
Charge III (conduct unbecoming an officer and gentleman).

24a
I.

BACKGROUND

In November 2014, Appellant and Major (Maj) DU
ended their romantic relationship. On or about 5 December 2014, Maj DU contacted the Fairfax County
(Virginia) Police Department (FCPD) and reported that
Appellant was “stalking” her. 3 FCPD Detective EM,
the lead investigator of Maj DU’s allegation against Appellant, had cameras set up outside Maj DU’s house.
On the night of 9 December 2014, the cameras photographed Appellant in the house’s fenced-in backyard.
On the morning of 16 December 2014, Maj DU was
driving in her neighborhood and called “911” from her
car to report that Appellant was following her in his car.
Detective EM had a warrant issued for Appellant’s arrest and contacted Appellant’s chain of command at
Joint Base Andrews Naval Air Facility Washington,
Maryland. When Appellant arrived at the base’s main
gate, security forces detained him. After Appellant’s
first sergeant came to the gate and talked with him, Appellant agreed to have the first sergeant drive him to an
FCPD station in Alexandria, Virginia.
Appellant arrived at the FCPD station around 1400
hours, and Detective EM placed him under arrest. After escorting Appellant to an interview room, Detective
EM advised him of his rights, which he acknowledged
before he agreed to answer questions. Detective EM
and another FCPD detective interviewed Appellant for
the next couple of hours. Appellant’s answers to their
questions formed the basis of four of the five specifications of conduct unbecoming an officer and gentleman
In 2015, Appellant was convicted in Fairfax County circuit court
of misdemeanor stalking.
3

25a
with which Appellant was charged and tried at courtmartial.
On 17 December 2014, Detective EM and other
FCPD personnel conducted a search of Appellant’s offbase residence. During the search, FCPD personnel
found documents indicating they contained classified information and contacted the Air Force Office of Special
Investigations (AFOSI). Several days after the search,
AFOSI agents went to Appellant’s apartment and seized
the documents, which became the subject of the single
specification of negligent dereliction of duty with which
Appellant was charged and tried at court-martial.
On 18 December 2014, Appellant called his friend,
SM, from the Fairfax County Detention Center and
asked her to call his supervisor, Colonel (Col) KB, and
request 10 days of emergency leave so that Appellant
could take care of a “personal” and “medical” situation.
SM wanted to include Appellant in a three-way call but
was unable to do so. She was able to contact Appellant’s office and submit his leave request, which Col KB
denied. Appellant’s request for SM to contact Col KB
formed the basis of the fifth specification of conduct
unbecoming an officer and gentleman with which Appellant was charged and tried at court-martial.
During Detective EM’s investigation of the stalking
allegation, AFOSI provided a 1998 report of an investigation by AFOSI and Minot (North Dakota) police into
an allegation by TS that Appellant raped her on or about
14 July 1998. In September 1998, TS declined to participate in the investigation, which was then closed with
no action. In 2015, Detective EM contacted TS, who
agreed to go forward with the original rape allegation,

26a
which became the single specification of rape with which
Appellant was charged and tried at court-martial.
II.
A.

DISCUSSION

Statute of Limitations

Appellant asserts that, because the statute of limitations had run, his conviction for a rape in 1998 must be
set aside under United States v. Mangahas, 77 M.J. 220
(C.A.A.F. 2018). We agree.
Prior to the findings portion of Appellant’s trial, the
Defense moved for the dismissal of the rape charge on
two bases: that the Government had violated Appellant’s right to a speedy trial and that the five-year statute of limitations set by Article 43, UCMJ, 10 U.S.C.
§ 843, 4 had tolled. The Government opposed the motion and, with regard to the statute of limitations, cited
precedent, including Willenbring v. Neurater, 48 M.J.
152 (C.A.A.F. 1998). 5
“The applicable statute of limitations is a question of
law, which we review de novo. An accused is subject to

The version of Article 43, UCMJ, at issue in Appellant’s case is
found in the 1998 MCM.
5
The military judge who presided during motions practice on
1 December 2016 heard oral argument on the Defense motion to
dismiss and then indicated he would make a written ruling. There
is no written or oral ruling on the motion in the record of trial, but
there is also no mention of a “missing” ruling by either party at
trial or on appeal. In addition, all the appellate exhibits offered
and admitted at trial are in the record. The application of Mangahas resolves the issue of the statute of limitations in Appellant’s
case and requires us to set aside his rape conviction. As a result,
we need not address the absence of a ruling on the motion.
4

27a
the statute of limitations in force at the time of the offense.” Mangahas, 77 M.J. at 222 (citations omitted).
At the time of the charged rape that allegedly occurred
in 1998, the UCMJ’s statute of limitations stated, “A
person charged . . . with any offense punishable by
death, may be tried and punished at any time without
limitation.” Article 43(a), UCMJ, 10 U.S.C. § 843(a).
Otherwise, the statute of limitations for trial by courtmartial was generally five years before the receipt of
sworn charges. Article 43(b)(1), UCMJ, 10 U.S.C.
§ 834(b)(1). The 1998 Manual for Courts-Martial
set death as the maximum punishment for rape. Manual for Courts-Martial, United States (1998 ed.), pt. IV,
¶ 45.e.(1).
As the court clearly and concisely explained in
United States v. Collins, 78 M.J. 530, 532-33 (A.F. Ct.
Crim. App. 2018), aff ’d,
M.J.
, No. 19-0052,
2019 CAAF LEXIS 231, at *1 (C.A.A.F. 12 Mar. 2019),
Mangahas overruled Willenbring and operates to apply
a five-year statute of limitations to a rape that is charged
as occurring before 2006, when the limitation was lifted.
See Article 43(a), UCMJ, 10 U.S.C. § 843(a). 6 The result in Appellant’s case is that time expired on the 1998
rape charge in 2003, 13 years before Appellant was
charged and three years before Article 43, UCMJ, was
amended. Because we apply the law at the time of appeal, not at the time of trial, United States v. Mullins,
69 M.J. 113, 116 (C.A.A.F. 2010) (citation omitted), we
find that the military judge erred by denying the Defense’s motion to dismiss Charge II and its Specifica-

The version of Article 43, UCMJ, as changed in 2006 is found in
the 2008 MCM.
6

28a
tion. The statute of limitations had run by the time Appellant was charged in 2016 with committing rape in
1998. 7 Therefore, we set aside Appellant’s conviction
for rape and the sentence.
Because we set aside the findings of guilty of rape
and the sentence and dismiss with prejudice Charge II
and its Specification, we consider whether to reassess a
sentence or order a rehearing. See United States v.
Winckelmann, 73 M.J. 11, 12 (C.A.A.F. 2013). We are
setting aside the most serious charge of which Appellant
was convicted. As a result, the penalty landscape has
changed dramatically, particularly regarding the maximum possible confinement that was confinement for life
and is now 15 months, 8 and the remaining offenses—
negligent dereliction of duty and conduct unbecoming an
officer and gentleman—do not capture the gravamen of
criminal conduct of the original charges. See id. at 1516 (citations omitted). We thus exercise our broad discretion and authorize a rehearing on sentence. See id.
at 12.

As the court did in Collins, we acknowledge the “unresolved
question” of whether the 2006 amendment of Article 43, UCMJ, extended the statute of limitations for rape occurring between 2001
and 2006. 78 M.J. at 536. But, as in Collins’ case, it is unnecessary
for us to answer the question in Appellant’s case because the fiveyear statute of limitations on the 1998 rape had run before the 2006
amendment. See id.
8
The military judge merged Specifications 1, 2, 3, and 5 of Charge
III, of which Appellant was found guilty, and the members were instructed to consider them as one offense for sentencing purposes.
7

29a
B.

Legal and Factual Sufficiency

Appellant next contends that his convictions of negligent dereliction of duty (Charge I and its Specification) and conduct unbecoming an officer and gentleman
(Charge III and its Specifications 1, 2, 3, and 5) are factually and legally insufficient. We disagree except for,
in part, the Specification of Charge I and, in toto, Specification 2 of Charge III.
1.

Law

We review issues of legal and factual sufficiency de
novo. Article 66(c), UCMJ, 10 U.S.C. § 866(c); United
States v. Washington, 57 M.J. 394, 399 (C.A.A.F. 2002)
(citation omitted). Our assessment of legal and factual
sufficiency is limited to the evidence produced at trial.
United States v. Dykes, 38 M.J. 270, 272 (C.M.A. 1993)
(citations omitted). The test for legal sufficiency of
the evidence is “whether, considering the evidence in
the light most favorable to the prosecution, a reasonable factfinder could have found all the essential elements beyond a reasonable doubt.” United States v.
Turner, 25 M.J. 324, 324 (C.M.A. 1987) (citing Jackson
v. Virginia, 443 U.S. 307, 319 (1979)).
The test for factual sufficiency is “whether, after
weighing the evidence in the record of trial and making
allowances for not having personally observed the witnesses, [we are] convinced of the [appellant]’s guilt beyond a reasonable doubt.” Id. at 325. “In conducting
this unique appellate role, we take ‘a fresh, impartial
look at the evidence,’ applying ‘neither a presumption of
innocence nor a presumption of guilt’ to ‘make [our] own
independent determination as to whether the evidence

30a
constitutes proof of each required element beyond a reasonable doubt.’ ” United States v. Wheeler, 76 M.J. 564,
568 (A.F. Ct. Crim. App. 2017) (alteration in original)
(quoting Washington, 57 M.J. at 399), aff ’d, 77 M.J. 289
(C.A.A.F. 2018).
In order for Appellant to be found guilty as charged
of negligent dereliction of duty under Article 92, UCMJ,
the Government was required to prove beyond a reasonable doubt that (1) Appellant had a duty to protect classified information; (2) he reasonably should have known
of the duty; and (3) at or near Camp Springs, Maryland,
on or about 17 December 2014, he was, through neglect,
derelict in the performance of the duty by taking classified materials to his residence and leaving them unattended. See Manual for Courts-Martial, United States,
pt. IV, ¶ 16.b.(3) (2016 ed.) (MCM). A duty may be imposed by, inter alia, regulation.
Id. ¶ 16.c.(3)(a).
“Actual knowledge of duties may be proved by circumstantial evidence. Actual knowledge need not be shown
if the individual reasonably should have known of the
duties. This may be demonstrated by[, inter alia,] regulations [or] training.
. . .
”
Id. ¶ 16.c.(3)(b).
“ ‘Negligently’ means an act or omission of a person who
is under a duty to use due care which exhibits a lack of
that degree of care which a reasonably prudent person
would have exercised under the same or similar circumstances.” Id. ¶ 16.c.(3)(c).
In order for Appellant to be found guilty as charged
of conduct unbecoming an officer and gentleman under
Article 133, UCMJ, the Government was required to
prove beyond a reasonable doubt that (1) Appellant did
a certain act and (2) under the circumstances, the act

31a
constituted conduct unbecoming an officer and gentleman. See MCM, pt. IV, ¶ 59.b.
The “certain act” charged in Specification 1 of Charge
III (and instructed by the military judge) was that (a) at
or near Alexandria, Virginia, on or about 16 December
2014, Appellant misled FCPD detectives by falsely
claiming he did not go into the backyard of Maj DU’s
residence, on or about 9 December 2014; (b) he “did so
in the case of himself against whom [he] had reason to
believe there were or would be criminal proceedings
pending;” and (c) he did so with the intent to impede the
due administration of justice. The “certain act” charged
in Specification 2 was that, at or near Alexandria, Virginia, on or about 16 December 2014, Appellant misled
FCPD detectives by falsely claiming he could not provide his official email address to the detectives under the
same circumstances charged in Specification 1. The
“certain act” charged in Specification 3 was that, at or
near Alexandria, Virginia, on or about 16 December
2014, Appellant misled FCPD detectives by falsely
claiming he was not in Maj DU’s neighborhood on 16 December 2014 under the same circumstances charged in
Specification 1. The “certain act” charged in Specification 5 was that, at or near Alexandria, Virginia, on or
about 18 December 2014, Appellant asked SM to misrepresent to Col KB the basis of Appellant’s request
that he be placed in an emergency leave status. Conduct in violation of Article 133, UCMJ, is, inter alia, action “in an unofficial or private capacity which, in dishonoring or disgracing the officer personally, seriously
compromises the person’s standing as an officer. There
are certain moral attributes common to the ideal officer
and the perfect gentleman, a lack of which is indicated
by acts of [, inter alia,] dishonesty. . . . ” Id. ¶ 59.c.(2).

32a
2.

Analysis

At the outset, we declare legally and factually sufficient Specifications 1, 3, and 5 of Charge III. For Specifications 1 and 3, the Government proved beyond a
reasonable doubt the falsity of Appellant’s claims that
he was not in Maj DU’s backyard on 9 December 2014
and not in her neighborhood on 16 December 2014.
Moreover, Appellant made these false claims after being
detained on his way in to work by Air Force personnel
at the request of Fairfax County authorities and then
placed under arrest and advised of his rights by FCPD
detectives. While wearing his Air Force uniform, he
agreed to answer questions from FCPD detectives who
knew that he was an Air Force officer and that his claims
were false when he made them with the obvious intent
to impede the investigation of the stalking allegation
against him. For Specification 5, the Government
proved beyond a reasonable doubt that Appellant asked
SM to “misrepresent” to Col KB the basis for Appellant’s emergency leave request and hide the fact that
Appellant was in jail. Considering the evidence in the
light most favorable to the prosecution, a reasonable
factfinder could have found all the essential elements of
Specifications 1, 3, and 5 of Charge III beyond a reasonable doubt and been convinced that Appellant committed the charged acts, that his conduct was unbecoming
an officer and gentleman, and that he was guilty beyond
a reasonable doubt. After weighing the evidence in the
record and making allowances for not having personally
observed the witnesses, we are so convinced.
Conversely, we determine legally and factually insufficient particular language of the Specification of Charge
I, which alleged that Appellant was negligently derelict

33a
in his duty to protect classified information by “taking
classified materials to his residence and leaving said materials unattended” on or about 17 December 2014.
The Government presented no evidence that Appellant
took the classified materials found at his residence on
17 December 2014 to his residence on or about that date.
However, the Government did prove beyond a reasonable doubt that, on or about 17 December 2014, Appellant
left the classified materials unattended at his residence
when he left his residence on the morning of 16 December 2014. We therefore except from the Specification
of Charge I the language (1) “taking classified materials
to,” (2) the “and” before “leaving,” and (3) “said” and set
aside the finding of guilty of the excepted language.
We substitute “at” for “to” and “classified” for “said”
and find legally and factually sufficient the finding of
guilty of the substituted language. 9
We also determine factually insufficient Specification
2 of Charge III. Taking a fresh, impartial look at the
evidence, we are convinced of the falsity of Appellant’s
claim that he could not provide his official email address
to the FCPD detectives interviewing him. However,
we are not convinced that he made the false claim endeavoring to impede the investigation of the stalking allegation against him. Instead, we find it clear from the
evidence (and the briefs of both parties on appeal) that
Appellant’s intent was to hide from his chain of command and supervision the fact that he was under criminal

With excepted and substituted language, the specification reads,
in relevant part, that Appellant was, through neglect, derelict in the
performance of his duty by “at his residence leaving classified materials unattended.”
9

34a
investigation and under arrest. As a result, we set aside
the finding of guilty of Specification 2 of Charge III.
C.

Failure to State an Offense

Appellant also challenges Charge III and its specifications, of which Specifications 1, 3, and 5 remain, for
failure to state an offense. We are not persuaded.
1.

Law

Whether a specification states an offense is a question of law we review de novo. United States v. Crafter,
64 M.J. 209, 211 (C.A.A.F. 2006) (citations omitted).
We also consider Appellant’s failure to object at trial
and review for plain error. United States v. Tunstall,
72 M.J. 191, 196 (C.A.A.F. 2013). To establish plain error, an appellant has the burden to demonstrate (1) error, (2) that the error was plain or obvious, and (3) that
the error materially prejudiced a substantial right of the
appellant. Id. (citation omitted).
There are only two elements for the offense of conduct unbecoming an officer and gentleman under Article
133, UCMJ: (1) an act of the accused and (2) that, under the circumstances, the act constituted conduct unbecoming an officer and gentleman. MCM, pt. IV, ¶ 59.b.
“This article includes acts made punishable by any other
article, provided these acts amount to conduct unbecoming an officer and a gentleman.” Id. ¶ 59.c.(2). Using
an example of stealing property in violation of Articles
121 and 133, UCMJ, the MCM explains:
Whenever the offense charged is the same as a specific offense set forth in this Manual, the elements of
proof are the same as those set forth in the paragraph
which treats that specific offense, with the additional

35a
requirement that the act or omission constitutes conduct unbecoming an officer and gentleman.
Id.
2.

Analysis

At trial, the Defense did not move for dismissal of any
charge or specification for failure to state an offense
pursuant to Rule for Courts-Martial 907(b)(2)(E) or object to the military judge’s instructions to the court
members on the elements of the Charge III offenses.
a.

Specifications 1 and 3 of Charge III

Appellant argues on appeal that it was plain or obvious error for Specifications 1 and 3 of Charge III to fail
to allege Appellant’s conduct was prejudicial to good order and discipline or service-discrediting. The argument is based on a reading of Specifications 1 and 3 as
charges for obstructing justice. Obstructing justice is
a specified offense under Article 134, UCMJ. Conduct
constitutes obstructing justice if the conduct at issue
satisfies all four elements of the offense, including the
“terminal element” of conduct prejudicial to good order
and discipline or service-discrediting. MCM, pt. IV,
¶ 96.b.(4). Appellant’s argument is understandable not
least because of the military judge’s instructions on the
elements of Specifications 1 and 3 of Charge III for conduct unbecoming an officer and gentleman in violation
of Article 133, UCMJ. As the military judge instructed, the elements were that Appellant wrongfully misled
FCPD detectives by making false claims; he “did so in
the case of himself against whom [he] had reason to believe there were or would be criminal proceedings pending;” he did so “with the intent to impede the due administration of justice;” and his conduct was unbecoming an

36a
officer and gentleman. Except for the fourth and final
element—“conduct unbecoming” instead of the terminal
element—the elements as instructed were identical to
the elements for obstructing justice.
Nonetheless, Appellant’s argument fails. Not only
did the Defense at trial not object to the elements of
Specifications 1 and 3, but it employed a deliberate
strategy to treat Specifications 1 and 3 (and 2 and 4) as
“general Article 133 violation[s]” and not charges of obstructing justice in order to limit Appellant’s confinement risk. 10 The strategy ultimately operated to Appellant’s distinct benefit when the military judge
merged all four of the Article 133, UCMJ, specifications
of which Appellant was found guilty and instructed the
members to consider them as one offense for sentencing
purposes. Even if we were to assume arguendo that
the omission of the terminal element from Specifications
1 and 3 was error, the error was not plain or obvious,
and, even if it was, it did not materially prejudice a substantial right of Appellant. See Tunstall, 72 M.J. at 196.
b.

Specification 5 of Charge III

Appellant also argues on appeal that Specification 5
of Charge III fails to state an offense “because it is
vague, lacks words of criminality,” and did not put Appellant on notice “that it was a crime to ask his civilian

Obstructing justice in violation of Article 134, UCMJ, has a maximum punishment including confinement for five years. MCM,
pt. IV, ¶ 96.e. Conduct unbecoming an officer and gentleman in violation of Article 133, UCMJ, has a maximum punishment including
confinement “for a period not in excess of that authorized for the
most analogous offense for which a punishment is prescribed in this
Manual, or, if none is prescribed, for 1 year.” Id. ¶ 59.e.
10

37a
friend to call his supervisor to inform his supervisor Appellant was requesting emergency leave.” We are unpersuaded and instead find that Specification 5 did state
an offense.
An officer’s conduct need not violate other provisions
of the UCMJ or even be otherwise criminal to violate
Article 133, UCMJ. The gravamen of the offense is
that the officer’s conduct disgraces him personally.
. . . Clearly, then, the appropriate standard for assessing criminality under Article 133 is whether the
conduct or act charged is dishonorable and compromising as hereinbefore spelled out—this notwithstanding whether or not the act otherwise amounts to
a crime.
United States v. Lof ton, 69 M.J. 386, 388-89 (C.A.A.F.
2011) (quoting United States v. Schweitzer, 68 M.J. 133,
137 (C.A.A.F. 2009)). Applying Schweitzer, we determine that Specification 5 put Appellant on notice that his
conduct was criminal. But the crime at issue was not,
as Appellant now contends, to “ask a civilian friend to
call his supervisor to request ‘emergency leave’ ” on Appellant’s behalf. Instead, Appellant was charged with
and convicted of conduct unbecoming an officer and gentleman because he asked SM to misrepresent to Col KB
the basis for his emergency-leave request as a “personal” and “medical” situation instead of what it actually
was: arrest and detention by civilian authorities for a
criminal charge. Correspondingly, the specification
was not vague and did not lack words of criminality. As
with Specifications 1 and 3, we review Specification 5 for
plain error and find none.

38a
D.

Post-Trial Processing Delay

Appellant claims that he is entitled to relief for the
delay from the date his trial concluded until the date the
convening authority took action. While we find that
the delay in the post-trial processing of his court-martial
was unreasonable, we grant no further relief than Appellant has already received.
We review de novo whether an appellant has been denied the due process right to a speedy post-trial review.
United States v. Moreno, 63 M.J. 129, 135 (C.A.A.F.
2006) (citations omitted). A presumption of unreasonable delay arises when the convening authority does not
take action within 120 days of the end of trial. Id. at
142. A presumptively unreasonable delay triggers an
analysis of the four factors laid out in Barker v. Wingo,
407 U.S. 514, 530 (1972): “(1) the length of the delay;
(2) the reasons for the delay; (3) the appellant’s assertion
of the right to timely review and appeal; and (4) prejudice.” Moreno, 63 M.J. at 135 (citations omitted).
Appellant’s trial ended on 14 June 2017. The convening authority took action on 2 February 2018, 233 days
after the end of trial and 113 days beyond the 120-day
standard.
Appellant’s trial took place on 20 September 2016,
1 December 2016, 5-9 June 2017, and 12-14 June 2017
and required a 1,123-page trial transcript and 12 volumes, including a classified volume. Except for the classified volume, Appellant received a copy of the record of
trial on 10 October 2017. The staff judge advocate’s
recommendation (SJAR) is dated 25 September 2017;
the SJAR addendum with the victim’s statement is
dated 12 October 2017. Appellant requested and was

39a
granted delays to submit clemency matters until 6 November 2017, 6 December 2017, and 11 December 2017.
His seven-volume, 1,400-page clemency matters are
dated 7 December 2017. However, they were not all
submitted by that date, and, at some point after 9 December 2017, Appellant’s original military defense counsel was replaced by a new military defense counsel. On
5 January 2018, Appellant indicated his clemency submission was complete. The second addendum to the
SJAR with Appellant’s clemency submission is dated
11 January 2018. The SJAR and both addenda recommended that the convening authority approve the sentence as adjudged.
Appellant cited the post-trial processing delay in
his clemency submission dated 7 December 2017 and
asserted his right to speedy post-trial processing on
17 January 2018. 11
Appellant claims to have suffered prejudice in the
form of oppressive incarceration and excessive anxiety
related to his purportedly wrongful convictions for rape,
conduct unbecoming an officer and gentleman, and negligent dereliction of duty. See Moreno, 63 M.J. at 138
(citations omitted). But we note, as the Government
points out, that Mangahas is the basis of Appellant’s
Appellant has twice moved the court for an expedited review of
his case, and the court has treated both motions as demands for
speedy appellate review. This opinion is being issued two months
before the 18-month standard for a presumptively unreasonable delay in appellate review set in United States v. Moreno, 63 M.J. 129,
142 (C.A.A.F. 2006). Appellant also petitioned the United States
Court of Appeals for the Armed Forces for a writ of habeas corpus,
which petition was denied, but did not file any such petition with us.
See Daniels v. Brobst,
M.J.
, No. 19-0223, 2019 CAAF
LEXIS 215 (C.A.A.F. 2 Apr. 2019) (mem.).
11

40a
most significant relief—the set-aside of his rape conviction and sentence—and the case was not decided until
6 February 2018, or four days after the convening authority took action in his case.
We weigh the Barker factors and conclude that Appellant is entitled to relief for the presumptively unreasonable 113-day delay in the post-trial processing of his
case. The sentence adjudged by the court members included three years of confinement. The convening authority approved a sentence including two years and
252 days of confinement. While there is no explanation
in the record for the difference in confinement between
the adjudged and approved sentences, we do not chalk
up to mere coincidence the fact that the convening authority reduced the confinement by exactly 113 days.
But, even if the precise measure of relief was purely coincidental, we find that it satisfies Appellant’s entitlement. We decline to grant further relief pursuant to
Moreno or any other discretionary authority we may exercise. See United States v. Tardif, 57 M.J. 219, 22324 (C.A.A.F. 2002); United States v. Gay, 74 M.J. 736,
744 (A.F. Ct. Crim. App. 2015), aff ’d, 75 M.J. 264
(C.A.A.F. 2016).
III.

CONCLUSION

The findings of guilt of Charge II and its Specification and of Specification 2 of Charge III are SET ASIDE
and Charge II and its Specification and Specification 2
of Charge III are DISMISSED WITH PREJUDICE.
The sentence is SET ASIDE. The finding of guilt of the
excepted language of the Specification of Charge I is
also SET ASIDE. The case is returned to The Judge
Advocate General for further processing consistent

41a
with this opinion. 12 A rehearing on sentence is authorized. Article 66(e), UCMJ, 10 U.S.C. § 866(e).
FOR THE COURT
/s/

CAROL K. JOYCE
CAROL K. JOYCE
Clerk of the Court

We direct a corrected court-martial order to remedy the following errors: (1) none of the specifications include “United States Air
Force” after Appellant’s name; (2) the Specification of Charge II
lists the wrong date of the charged offense; (3) Specification 1 of
Charge III is missing the word “falsely” before “claiming”; and
(4) Specification 5 of Charge III lists the wrong date of the charged
offense and does not reflect the minor change to the spelling of SM’s
last name that the military judge allowed the Government to make.
Yet again, we are dismayed at the lack of attention to detail in courtmartial processing and compelled to remind Air Force personnel to
exercise care in the execution of their duties.
12

42a
APPENDIX E

1.

10 U.S.C. 843(a) and (b) (1994) provides:

Art. 43.

Statute of limitations

(a) A person charged with absence without leave or
missing movement in time of war, or with any offense
punishable by death, may be tried and punished at any
time without limitation.
(b)(1) Except as otherwise provided in this section
(article), a person charged with an offense is not liable
to be tried by court-martial if the offense was committed
more than five years before the receipt of sworn charges
and specifications by an officer exercising summary
court-martial jurisdiction over the command.
(2) A person charged with an offense is not liable to
be punished under section 815 of this title (article 15) if
the offense was committed more than two years before
the imposition of punishment.
2. 10 U.S.C. 843(a) and (b) (2012 & Supp. V 2017)
provides:
Art. 43.

Statute of limitations

(a) A person charged with absence without leave or
missing movement in time of war, with murder, rape or
sexual assault, or rape or sexual assault of a child, or
with any other offense punishable by death, may be tried
and punished at any time without limitation.
(b)(1) Except as otherwise provided in this section
(article), a person charged with an offense is not liable
to be tried by court-martial if the offense was committed
more than five years before the receipt of sworn charges

43a
and specifications by an officer exercising summary
court-martial jurisdiction over the command.
(2)(A) A person charged with having committed a
child abuse offense against a child is liable to be tried by
court-martial if the sworn charges and specifications are
received during the life of the child or within ten years
after the date on which the offense was committed,
whichever provides a longer period, by an officer exercising summary court-martial jurisdiction with respect
to that person.
(B) In subparagraph (A), the term “child abuse offense” means an act that involves abuse of a person who
has not attained the age of 16 years and constitutes any
of the following offenses:
(i) Any offense in violation of section 920, 920a,
920b, 920c, or 930 of this title (article 120, 120a, 120b,
120c, or 130), unless the offense is covered by subsection (a).
(ii) Maiming in violation of section 928a of this
title (article 128a).
(iii) Aggravated assault, assault consummated by
a battery, or assault with intent to commit specified
offenses in violation of section 928 of this title (article
128).
(iv) Kidnapping in violation of section 925 of this
title (article 125).
(C) In subparagraph (A), the term “child abuse offense” includes an act that involves abuse of a person
who has not attained the age of 18 years and would constitute an offense under chapter 110 or 117 of title 18 or
under section 1591 of that title.

44a
(3) A person charged with an offense is not liable to
be punished under section 815 of this title (article 15) if
the offense was committed more than two years before
the imposition of punishment.
3.

10 U.S.C. 920(a) (1994) provides:

Art. 120.

Rape and carnal knowledge

(a) Any person subject to this chapter who commits
an act of sexual intercourse, by force and without consent, is guilty of rape and shall be punished by death or
such other punishment as a court-martial may direct.
4.

10 U.S.C. 920(a) provides:

Art. 120.

Rape and sexual assault generally

(a) RAPE.—Any person subject to this chapter who
commits a sexual act upon another person by—
(1)

using unlawful force against that other person;

(2) using force causing or likely to cause death
or grievous bodily harm to any person;
(3) threatening or placing that other person in
fear that any person will be subjected to death, grievous bodily harm, or kidnapping;
or

(4)

first rendering that other person unconscious;

(5) administering to that other person by force
or threat of force, or without the knowledge or consent of that person, a drug, intoxicant, or other similar substance and thereby substantially impairing

45a
the ability of that other person to appraise or control
conduct;
is guilty of rape and shall be punished as a court-martial
may direct.
5.

18 U.S.C. 3281 provides:

Capital offenses

An indictment for any offense punishable by death
may be found at any time without limitation.

